                             Office of the Inspector General

June 19, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Review of the Social Security Administration’s Internal Controls over International
Merchant Purchase Authorization Card Payments (A-13-97-91018)


The attached final report presents the results of our audit. Our objective was to
determine whether the Social Security Administration’s internal controls provided
reasonable assurance that International Merchant Purchase Authorization Card
purchases were appropriately authorized and the processing and reporting of purchases
were complete, accurate, and properly classified.

Please comment within 60 days on corrective action taken or planned on each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




                                             James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   REVIEW OF THE SOCIAL SECURITY
     ADMINISTRATION’S INTERNAL
   CONTROLS OVER INTERNATIONAL
        MERCHANT PURCHASE
   AUTHORIZATION CARD PAYMENTS

    June 2000     A-13-97-91018




 AUDIT REPORT

                                      Executive Summary

OBJECTIVE

We determined whether the Social Security Administration's (SSA) internal controls
provided reasonable assurance that International Merchant Purchase Authorization
Card (IMPAC) purchases were appropriately authorized and the processing and
reporting of purchases were complete, accurate, and properly classified.

BACKGROUND

The IMPAC, a Federal credit card purchasing program implemented in 1982, was

designed to streamline Federal payment procedures, reduce paperwork, and lower the

administrative costs of purchasing supplies and services. IMPAC was originally a

manual process. However, the Office of Acquisition and Grants (OAG) automated this

process in October 1995, developing the Purchase Card Reporting System (PCRS) to

capture, process, and report transaction data. In June 1997, OAG developed a system

to ensure appropriate use of SSA’s IMPAC program. Additionally, SSA’s Office of

Operations reviews IMPAC transactions during its On-site Security Control and Audit

Reviews of field offices.


Since November 1998, the Citibank Corporation, as the contracted financial institution,

has issued IMPAC cards and provided related services to Federal cardholders. From

September 1, 1996, through November 30, 1997, SSA's 2,356 micro-purchasers

(authorized cardholders) made 99,734 IMPAC expenditures, totaling approximately

$33.9 million.


We audited 12 SSA cardholders: 4 from Headquarters and 8 from Philadelphia

(Region III). These cardholders purchased 2,428 items or services totaling

approximately $1.5 million from September 1, 1996, through November 30, 1997. We

conducted this audit from July through November 1998 at SSA Headquarters;

two field offices in Baltimore, Maryland; and six field offices in Harrisburg, Wilkes-Barre,

and Philadelphia, Pennsylvania. In October and November 1999, we revisited selected

cardholders to confirm that conditions noted during our initial reviews were still valid.


RESULTS OF REVIEW

Although SSA had established internal controls for IMPAC purchases, we found
implementation and adherence weaknesses. Of particular concern were incidences
where appropriate records/documentation were not maintained. Our specific
findings were as follows.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                               i
� Required Purchase Logs Were Incomplete or Nonexistent

� IMPAC Transactions Had Partial or No Required Documentary Evidence

� Written Management Approval Was Not Always Obtained for IMPAC Purchases

� Automated IMPAC Purchasing Procedures Did Not Provide for Separation of Duties

� Unauthorized Individuals Were Allowed IMPAC Access

� Split Purchases Were Used to Exceed IMPAC Spending Threshold

� The PCRS Contained Insufficient or Inaccurate Information

� IMPAC Purchases Were Made Without Evidence of Budget Approval

CONCLUSION AND RECOMMENDATIONS

To strengthen its internal controls over the IMPAC process, we recommend that
SSA:

�	 Reinforce knowledge of policies and procedures on the maintenance of complete
   and accurate purchase logs so that IMPAC purchases are processed appropriately.

�	 Require documentation procedures be incorporated into the Administrative
   Instructions Manual System in accordance with General Accounting Office (GAO)
   standards and those described in SSA’s Training Course. All cardholders should be
   required to comply with the established documentation procedures.

�	 Reinforce knowledge of policies and procedures on the management approval of all
   purchase requisitions to confirm that purchases are appropriate and are for official
   Government purposes.

�	 Require adherence to GAO and SSA micro-purchasing policies and procedures that
   require separation of duties. For example, reinstitute the requirement for an
   authorizing official’s approval when certifying IMPAC purchases. Incorporate such
   micro-purchasing procedures in PCRS guidance as well as the Administrative
   Instructions Manual System.

�	 Require proper recording and accounting of all expendable purchased items
   considered sensitive.

� Require that only authorized cardholders be able to process IMPAC transactions.

�	 Investigate all potential violations of purchase limitations to ensure appropriate
   IMPAC use.



SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                             ii
�	 Require cardholders to provide adequate descriptions of purchased items to ensure
   the effectiveness of the PCRS monitoring system.

� Establish an edit process in the PCRS to identify incorrect sub-object class codes.

�	 Require appropriate budget approval and accounting classification of all IMPAC
   purchases as a means of maintaining proper fiscal control.

AGENCY COMMENTS

SSA generally agreed with our recommendations. However, SSA only agreed in part
with Recommendation 4. SSA plans to incorporate the PCRS process into Citibank's
Electronic Access System. The approving official's paper copy of the monthly statement
will continue to serve as the final step in the post-review certification process to ensure
the validity of the transactions made by his/her cardholders.

Also, SSA did not agree with Recommendation 9. SSA stated it is not possible to build
into the PCRS edits for incorrect codes. However, SSA has included an edit in PCRS
Version 4.2 to ensure that Common Accounting Numbers and sub-object class codes
used for each transaction are valid. Before the end of Fiscal Year 2000, SSA will
include in its micro-purchase Acquisition Management Reviews a verification process to
ensure the sub-object class code is correct.

OIG RESPONSE

We agree with SSA's plan to incorporate the PCRS process into Citibank's Electronic
Access System, which will enable the authorizing officials to review cardholder
transactions electronically. However, we continue to recommend that SSA
re-emphasize the authorizing official responsibility until the process with Citibank is fully
implemented. We also agree with SSA's modification of the PCRS to ensure that only
valid sub-object class codes are used for IMPAC transactions.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                               iii
                                                        Table of Contents

                                                                                                                     Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 3


  Required Purchase Logs Were Incomplete or Nonexistent ................................. 3


  IMPAC Transactions Had Partial or No Required

  Documentary Evidence........................................................................................ 4


  Written Management Approval Was Not Always Obtained for IMPAC

  Purchases............................................................................................................ 5


  Automated IMPAC Purchasing Procedures Did Not Provide for

  Separation of Duties ............................................................................................ 6


  Unauthorized Individuals Were Allowed IMPAC Access...................................... 7


  Split Purchases Were Used to Exceed IMPAC Spending

  Threshold............................................................................................................. 7


  The PCRS Contained Insufficient or Inaccurate Information................................ 8


  IMPAC Purchases Were Made Without Evidence of Budget Approval................ 9


CONCLUSIONS AND RECOMMENDATIONS .................................................... 10


APPENDICES

APPENDIX A - Agency Comments

APPENDIX B - Major Report Contributors

APPENDIX C - SSA Organizational Chart




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)
                                                               Acronyms


 FO                        Field Office

 GSA                       General Services Administration

 IMPAC                     International Merchant Purchase Authorization Card

 OAG                       Office of Acquisition and Grants

 OMB                       Office of Management and Budget

 PCRS                      Purchase Card Reporting System

 SOC                       Sub-Object Class

 SSA                       Social Security Administration





SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)
                                                                          Introduction

OBJECTIVE

We determined whether the Social Security Administration's (SSA) internal controls
provided reasonable assurance that International Merchant Purchase Authorization
Card (IMPAC) purchases were appropriately authorized and the processing and
reporting of these purchases were complete, accurate, and properly classified.

BACKGROUND

The IMPAC, a Federal credit card micro-purchasing program implemented in 1982, was
designed to streamline Federal payment procedures, reduce paperwork, and lower the
administrative costs of purchasing supplies and services.1 Since November 1998, the
General Services Administration (GSA) has contracted with the Citibank Corporation to
issue the IMPAC and provide related services to Federal cardholders.2 From
September 1, 1996, through November 30, 1997, SSA's 2,356 micro-purchasers
located at Headquarters and field offices (FO) made 99,734 transactions, totaling
approximately $33.9 million.

Micro-purchasing was automated in October 1995 by the Purchase Card Reporting
System (PCRS) developed by the Office of Acquisition and Grants (OAG). The PCRS
enables cardholders nationwide to certify and update acquisition activity within 1 week
of notification by the contracted financial institution that a purchase has been posted.
The PCRS also allows for additional financial accounting information, including a
Common Accounting Number, sub-object class (SOC) code, and purchase description.
The PCRS eliminates the requirement that a cardholder send the paper Statement of
Account to SSA’s Office of Financial Policy and Operations.

In June 1997, OAG developed an oversight system for SSA’s micro-purchase card
program. The system identifies purchases that appear inconsistent with established
regulations and procedures, such as (1) purchase of prohibited or restricted supplies or
services,3 (2) orders split or divided to stay below the micro-purchase or delegated
dollar limit, (3) repeat purchases from the same vendor, and (4) inadequate PCRS
descriptions. Questionable purchase data are forwarded to the cardholder to verify and
to provide supporting documentation.

1
  The Federal Acquisition Streamlining Act of 1994, Public Law 103-355, 108 Stat. 3243 (1994), created a
new designation for Federal purchasing entitled “micro-purchasing,”an acquisition of supplies or services
(except construction), the aggregate amount of which does not exceed $2,500. Micro-purchases for
construction-related purchases are limited to $2,000.
2
 Before Citibank Corporation, the GSA contract was with Rocky Mountain Bankcard System, Inc., a
subsidiary of U.S. Bancorp.
3
    Prohibited or restricted refers to personal items or items that can be ordered in limited quantities.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                                 1
SSA’s Office of Operations also includes a review of FOs’IMPAC transactions as part
of its On-Site Security Control and Audit Review system. This Review system helps
determine whether FO managers have implemented internal controls required by SSA’s
Program Operations Manual System and Administrative Instructions Manual System
instructions as well as requirements governing SSA operations.

SCOPE AND METHODOLOGY

We reviewed prior Office of the Inspector General audits and examined IMPAC program
policies and procedures. We interviewed 12 SSA cardholders and their authorizing
officials and reviewed their internal controls to safeguard IMPAC use. Cardholders at
these sites had purchased 2,428 items or services, totaling approximately $1.5 million,
from September 1, 1996, through November 30, 1997. We selected the cardholders
based on travel proximity to Headquarters. We conducted site visits at SSA
Headquarters; two FOs in Baltimore, Maryland; six FOs in Harrisburg, Wilkes-Barre,
and Philadelphia, Pennsylvania. We conducted our work from July through November
1998. In October and November 1999, we revisited selected cardholders to confirm
that conditions noted during our initial reviews were still valid.

We conducted our audit in accordance with generally accepted government auditing
standards.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                         2
                                                Results of Review

SSA has established internal controls for IMPAC purchases. However, SSA needs to
improve implementation and compliance with these controls, particularly maintenance
of appropriate records and documentation.

Required Purchase Logs Were Incomplete or Nonexistent

Cardholders are required to maintain a log of all purchases/services.4 At a minimum,
and regardless of format (electronic or paper), the log should include (1) purchase
order number, (2) date of purchase, (3) description of the item purchased, (4) vendor
name, (5) expected delivery date, and (6) delivery occurred.5

                           Although we did find 2 Headquarters cardholders maintained
Most Reviewed              complete purchase logs, the remaining 10 did not include
Cardholders Did            required information. Five cardholders had incomplete purchase
Not Fully Meet the         logs: two at Headquarters and three at FOs. The remaining
Purchase Log               5 FOs had no purchase log, and acquisition activity for
Requirements               approximately 1,160 (48 percent) of 2,428 PCRS entries could
                           not be tracked.

One cardholder at Headquarters who had incomplete purchase logs failed to post 721
(92 percent) of 784 transactions, not complying with the required minimum elements.
The other Headquarters cardholder failed to post 63 of 90 (70 percent) transactions
because of billing problems with the vendor.

In the 8 FOs with incomplete or no purchase logs, we found 376 of 697 transactions
not posted. During interviews, FO cardholders reported being unfamiliar with
procedures regarding purchase log maintenance. On average, FOs process relatively
few transactions a month, approximately six per office. We believe maintaining a
complete and accurate purchase log is neither a burdensome nor a highly complex task
relative to the small number of monthly transactions processed.




4
 Administrative Instructions Manual System Material Resources Handbook of Small Purchases, section
05.03, Required Acquisition Documentation. A purchase log is a sequential list of each micro-purchase
by purchase order number.
5
 SSA’s Micro-Purchasing in SSA Field Activities Training Course, module 8 – Purchase Files and
Documentation, section A, The Purchase Log, screen number 12. The cardholder checks off the delivery
occurred column when she/he is notified the items have been delivered.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                        3
IMPAC Transactions Had Partial or No Required Documentary
Evidence

Documentation, whether in paper or electronic form, should be complete, accurate, and
facilitate tracing the transactions from inception to completion.6 In general,
documentary evidence should include (1) request documentation;7 (2) notes of
conversation with the vendor;8 (3) a copy of the payment document, if any, showing a
purchase has been made and has a zero balance due; and (4) proof of delivery, if any,
such as any delivery tickets and packing slip receipts issued by the vendor and given to
an individual other than the requester.

Nearly All Reviewed          For the four Headquarters cardholders, at least 99 percent
IMPAC Purchases Had          of all reviewed transactions, totaling $1,182,550, was either
No Available                 partially maintained or not maintained at all (see Table 1).
Documentation                One cardholder accounted for 1,035 (60 percent) of the
                             1,731 reviewed Headquarters’transactions. Of these, only
2 transactions had complete documentation, 805 contained partial documentation, and
the remaining 228 were not documented at all. This cardholder was aware of the
required documentation procedures but did not comply with them, believing the
procedures were in conflict with the Vice President’s initiative on paperless processing.

       Table 1. IMPAC Documentation for Four Cardholders at Headquarters
          Required          Number            Percent
       Documentation           of               of              Dollar
         Maintained       Transactions     Transactions        Amount
               All                             6                    0.4                 $6,783
             Partial                      1,385                   80.0                 970,107
              None                          340                   19.6                 212,443
              Total                       1,731                  100.0             $1,189,333
The remaining 696 transactions processed by the 3 other Headquarters cardholders
also showed a lack of understanding as to what constituted complete documentation.
They stated they were unfamiliar with relevant policies and procedures.


6
  General Accounting Office Policy and Procedures Manual for Guidance of Federal Agencies requires
that documentation be readily available for examination. Module 8 of SSA's micro-purchasing training
guide, Purchase Files and Documentation, also requires cardholders to keep documentation in support of
their IMPAC purchases.
7
 Request documentation may include what the cardholder was asked to purchase, for whom, required
delivery date, suggested source, justification, and prior purchase approval.
8
 Notes of conversation with the vendor should include such information as the contacted individual’s
name, quoted price, and warranty information.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                            4
We found the same pattern with the reviewed FO cardholders. As seen in Table 2, only
1 of the 697 transactions had all the required documentation. The remaining
696 transactions, totaling $297,358, had either partial documentation or none at all. FO
cardholders had differing viewpoints about the types of documentation they were
required to maintain. The lack of required documentation at both Headquarters and
FOs limited our ability to determine the validity of the purchase transactions.

          Table 2. IMPAC Documentation for Eight Cardholders at FOs
        Required             Number           Percent
      Documentation            of                of            Dollar
       Maintained         Transactions     Transactions       Amount

             All                         1                    0.1            $562

           Partial                    561                 80.5            252,691

           None                       135                 19.4             44,667
           Total                      697                 100            $297,920


Written Management Approval Was Not Always Obtained for IMPAC
Purchases

Office of Management and Budget (OMB) Circular A-123, Management Accountability
and Control Standards, for internal controls requires that supervisors provide their staffs
with necessary guidance and training. This instruction helps ensure errors, waste, and
wrongful acts are minimized and specific management directives are achieved.

                            Of the 2,428 IMPAC transactions processed by
60 Percent of IMPAC         12 cardholders, 1,448 (60 percent) were not approved by
Purchases Did Not           management in writing before the purchases were made.
Have Written                Eleven cardholders accounted for 480 (33 percent) of these
Management Approval         transactions not having written management approval, with
                            1 cardholder accounting for the remaining 968 (67 percent).
Cardholders and supervisors told us they had verbal management approval, but they
could provide no evidence of the approval. Without written approval, management does
not have an opportunity to confirm that purchases are appropriate and for official
Government purposes.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                             5
Automated IMPAC Purchasing Procedures Did Not Provide for
Separation of Duties

Before micro-purchasing was automated, the manual process had provisions for
separation of duties9 and allowed for supervisory review of all purchases,10 making it
more difficult for a cardholder to make unauthorized purchases without detection. There
was no provision in the PCRS requiring approving officials to certify the authenticity of
purchases. Cardholders were allowed to unilaterally certify their own purchases after
retrieving and reviewing the weekly PCRS transactions. According to OAG, the
approving official’s certification of PCRS transactions was excluded to make IMPAC
purchases easier for management use.

We believe this situation increases the potential for cardholders to make unauthorized
purchases without detection. For example, while we were tracing the disposition of
sensitive items 11 purchased by cardholders (as reflected in the PCRS), we found that
one cardholder could not locate a laptop computer listed for $1,340. After reviewing
available documents and interviewing staff, we determined the cardholder’s manager
did not approve the laptop purchase requisition. We also found (1) the description on
the purchase requisition did not match the description on either the invoice or the
PCRS; (2) the individual for whom the laptop computer was intended and who
supposedly made the request did not know about the purchase; (3) the invoice indicated
a different laptop computer brand name than was actually requested; and
(4) the laptop computer was not noted in the component's custodial official’s records of
sensitive, expendable items.12

This example illustrates what can happen when one individual authorizes, processes,
records and reviews a purchase transaction. Without effective checks and balances,
there is an increased risk of error, fraud, waste, or abuse when only one person controls
all key aspects of a transaction.




9
 OMB standards for management controls require that key duties and responsibilities be divided or
segregated among individuals to ensure they do not exceed or abuse their assigned authority (OMB
Circular A -123, II. Establishing Management Controls, Specific Management Control Standard,
Separation of Duties and Supervision).
10
  Administrative Instructions Manual System, Material Resources, chapter 6 – Acquisition, instruction
number 16, section 12, Approving Official (dated July 31, 1992).
11
  Sensitive items are considered those that are expensive and reportable, for example, laptop
computers, cellular phones, tape recorders, and cameras.
12
  We met with management to discuss the missing equipment and were told that every effort would be
made to recover the laptop computer. The cardholder told management the laptop computer could not be
located.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                             6
Unauthorized Individuals Were Allowed IMPAC Access

                          SSA’s policy states the cardholder is responsible for IMPAC
Nearly One-Third of       card security and must prevent its use by others.13 Although
Reviewed FO               we found that 8 of 12 cardholders did not share their micro-
Cardholders Allowed       purchase cards, 4 cardholders at FOs did. For example, in
Others IMPAC Access       one FO, the cardholder’s responsibilities were inappropriately
                          delegated to an administrative assistant who was asked to
assume the role of micro-purchaser. We were told unauthorized individuals were
allowed IMPAC access because (1) the cardholder was not aware permitting others to
use the cards was problematic and (2) the FO needed to prioritize workloads (for
example, having to choose between assigning a person to process claims or make
IMPAC purchases).

To further corroborate our findings, we reviewed the IMPAC portion of 33 On-Site
Security Control and Audit Review reports conducted by SSA’s integrity staff. These
reports covered the same time frame as our audit. We found 10 incidences where
cards were accessible to individuals other than the cardholders. We also found that
unauthorized individuals made IMPAC purchases by telephone.

If a cardholder allows an unauthorized person access to the IMPAC, the authorized
cardholder is responsible for any purchases that unauthorized user makes. We believe
allowing cards to be used by unauthorized persons can potentially compromise the
integrity of the IMPAC process, creating situations for increased incidences of micro-
purchasing fraud, waste, and abuse.

Split Purchases Were Used To Exceed IMPAC Spending Threshold

Split purchases are made when procurements exceed a spending threshold and the
purchaser intentionally splits the procurement into smaller purchases. To test whether
cardholders made split purchases, we used the PCRS to list all transactions made on
the same day to the same vendor. From this list, we identified 203 transactions from
Headquarters. Of these, we identified eight as split purchases. We determined that
these split purchases were made because no SSA oversight existed to identify and
resolve them. These purchases were not authorized under IMPAC procedures, and the
cardholder should have forwarded them to a contracting officer who had authority to
procure above the $2,500 single purchase limit.14 By splitting purchases, cardholders
can exceed the $2,500 micro-purchasing limit, expediting the purchasing process,
circumventing the more complicated and laborious competitive bidding process and
exemption from the Federal Acquisition Streamlining Act of 1994.
13
  SSA Administrative Instructions Manual System, Material Resources, chapter 06 - Acquisition, instruction
number 16, section 05, Introduction. A cardholder may not redelegate his/her authorities or responsibilities,
and personnel cannot exercise any cardholder authorities when they are designated in an “acting”position and
no one can “sign for”the cardholder (SSA's Micro-Purchasing in SSA Field Activities Training Course, module
2 -Your Authority, section A, Nature of Acquisition Delegation, screen Number 1).
14
     Federal Acquisition Regulation, subchapter C, part 13 - Simplified Acquisition Procedures, subpart 13.003d.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                                   7
The PCRS Contained Insufficient or Inaccurate Information

Cardholders are required to update the PCRS with each week’s purchase activity by
describing the product or service purchased. Also, as part of the certification process,
the cardholder inputs the applicable description of the items/services purchased and the
appropriate SOC data, as approved.

Over One-Third of           When we compared 2,428 purchase descriptions entered
Reviewed Transactions       into the PCRS against the documentation maintained by
Did Not Have Accurate       each cardholder, we found that 350 transactions did not
Purchase Descriptions       include sufficient information to determine the transaction’s
                            validity. In addition, we could not determine the accuracy
                            of descriptions for another 476 transactions because
documentation was not available for review. Cardholders informed us the purchase
descriptions were not accurate because they did not follow the policy guidance OAG
provided.15

Because OAG relies on complete purchase descriptions to identify purchases that
appear inconsistent with established regulations and procedures, it is imperative that
cardholders give correct and accurate purchase descriptions. Without these, OAG’s
capability to fully monitor IMPAC spending is restricted.

                           We also discovered problems with SOC coding. In our
No Edit Processes
                           review of one cardholder at Headquarters, we found the
to Ensure Assignment
                           same SOC had been charged for all items/services
and Entry of
                           purchased during our review period. Of the cardholder’s
Correct SOCs
                           1,035 transactions, 417 (40 percent), totaling $253,107,
                           contained incorrect SOC codes. We believe these
transactions should have been allocated among 21 other SOC codes rather than
charged to the same SOC. Additionally, for the eight FO components, approximately
11 percent of the SOCs did not match the items purchased. There was no edit process
to prevent cardholders from either deliberately or accidentally entering incorrect SOCs
into the PCRS. By incorrectly recording purchases under the wrong SOC,
management’s ability to maintain accurate accounting and budgetary data is
compromised.




15
   SSA’s policy on providing purchase descriptions is found in its training manual, SSA’s Micro-
Purchasing in SSA Field Activities Training Course, module 11 – Rules on Use of the Purchase Card,
section C, Statement of Account, screen number 43. It informs the cardholder that s/he is responsible for
providing a brief description of the purchase rather than a general description, such as miscellaneous
office supplies.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                           8
IMPAC Purchases Were Made Without Evidence of Budget Approval

                            SSA’s Micro-Purchasing in SSA Field Activities Training
Nearly Two-Thirds of        Course states cardholders cannot make a purchase without
Sample Did Not Have         assurance that funds are available. Although the Training
Appropriate Budgetary       Course recommends the use of electronic mail procedures
Approval                    for budget review and approval of micro-purchase requests,
                            we found no evidence that our sampled cardholders were
using this process. They did not consistently provide documentary evidence of budget
approval for transactions completed during our review period.16

At Headquarters, reviewed cardholders were responsible for 1,731 transactions totaling
$1.2 million. Of these, 1,099 (63 percent), totaling $582,488, had no evidence of
budgetary approval. Cardholders did not obtain approvals because Common
Accounting Number and SOC financial data had not been assigned to purchased items.

For the reviewed FOs, we found similar results. Of 697 transactions totaling $297,920,
419 transactions (60 percent), totaling $132,252, did not have appropriate budgetary
approval. In contrast to Headquarters cardholders maintaining evidence to support their
budgetary approval for purchased items/services, the FOs had no formal budget
approval process. FOs confirmed their expenditures by checking against their budget
allocations provided by their regional offices. As a result, for the FOs, we could not
determine whether there was appropriate budget approval granted or the cardholder
had exceeded budget limitations. Regardless of location (Headquarters or FO), we
believe cardholders will continue to process micro-purchases without obtaining the
required budgetary approval unless management conducts ongoing reviews to ensure
documentation for budgetary approval is obtained.




16
  Funding approval should be accomplished by routing the purchase request through the cardholder’s
budgetary approving official. The budgetary approval process involves checking Common Accounting
Number and SOC codes to ensure that funds are available for specific items requested. Headquarters
and field components can use various purchase request documents to obtain budgetary approval.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                      9
                                       Conclusions and
                                          Recommendations
We found numerous internal control weaknesses in the IMPAC micro-purchasing
process. These included incidences in which required purchase logs were not always
maintained, purchase documentation was insufficient, management approval missing,
separation of duties not enforced, supervisory reviews not conducted, unauthorized
individuals given IMPAC access, split purchases made, purchase descriptions
inaccurate, and budget approval not obtained. We believe these internal control
weaknesses increase the potential likelihood for fraud, waste and abuse in connection
with IMPAC purchases, as well as hindering SSA’s ability to detect such actions.

To strengthen IMPAC internal controls, we recommend that SSA:

1.	 Reinforce knowledge of policies and procedures on the maintenance of complete
    and accurate purchase logs so that IMPAC purchases are processed appropriately.

2.	 Incorporate documentation procedures the Administrative Instructions Manual
    System in accordance with General Accounting Office standards and those
    described in SSA’s Training Course. All cardholders should be required to comply
    with the established documentation procedures.

3.	 Reinforce knowledge of policies and procedures on the management approval of all
    purchase requisitions to confirm that purchases are appropriate and are for official
    Government purposes.

4.	 Require adherence to General Accounting Office and SSA micro-purchasing
    policies and procedures that require separation of duties. For example, reinstitute
    the requirement for an authorizing official’s approval when certifying IMPAC
    purchases. Incorporate such micro-purchasing procedures in PCRS guidance as
    well as the Administrative Instruction Manual System manual.

5.	 Require proper recording and accounting of all expendable purchased items
    considered sensitive.

6. Require that only authorized cardholders be able to process IMPAC transactions.

7.	 Investigate all potential violations of purchase limitations to ensure appropriate
    IMPAC use.

8.	 Require cardholders to provide adequate descriptions of purchased items to ensure
    the effectiveness of the PCRS monitoring system.



SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                              10
9. Establish an edit process in the PCRS to identify incorrect SOC codes.

10. Require appropriate budget approval and accounting classification of all IMPAC
    purchases as a means of maintaining proper fiscal control.

AGENCY COMMENTS

SSA generally agreed with our recommendations. However, SSA only agreed in part
with Recommendation 4. SSA plans to incorporate the PCRS process into Citibank's
Electronic Access System. The approving officer’s paper copy of the monthly statement
will continue to serve as the final step in the post-review certification process to ensure
the validity of the transactions made by his/her cardholders.

Also, SSA did not agree with Recommendation 9. SSA stated it is not possible to build
into the PCRS edits for incorrect codes. However, SSA has included an edit in PCRS
Version 4.2 to ensure that Common Accounting Numbers and SOC codes used for
each transaction are valid codes. Before the end of Fiscal Year 2000, SSA will include
in its micro-purchase Acquisition Management Reviews a verification process to ensure
the SOC code is correct.

SSA also provided other comments that we addressed. See Appendix A for the full text
of SSA’s comments.

OIG RESPONSE

We agree with SSA's plan to incorporate the PCRS process into Citibank's Electronic
Access System, which will enable the authorizing officials to review cardholder
transactions electronically. However, we continue to recommend that SSA
re-emphasize the authorizing official responsibility until the process with Citibank is fully
implemented. We also agree with SSA's modification of the PCRS to ensure that only
valid SOCs are used for IMPAC transactions.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                               11
                                                              Appendix A


Agency Comments





SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S (SSA)
INTERNAL CONTROLS OVER INTERNATIONAL MERCHANT PURCHASE
AUTHORIZATION CARD PAYMENTS" (A-13-97-91018)


Thank you for the opportunity to review and provide comments on
this draft report. We agree that SSA should strengthen its
International Merchant Purchase Authorization Card (IMPAC)
internal controls to ensure that credit purchases are valid;
proper and appropriately authorized; controls are in place to
prevent and/or discover waste or fraud; and budgetary restraints
are observed.

We offer the following comments.

OIG Recommendation 1

Reinforce knowledge of policies and procedures on the
maintenance of complete and accurate purchase logs so that IMPAC
purchases are processed appropriately.

SSA Comment

We agree. Although our current Administrative Instructions
Manual System (AIMS) and the computer-based training course
already specify this requirement, we will ensure that all new
purchase card related training and policy emphasize the need for
purchase logs.

OIG Recommendation 2

Require documentation procedures be incorporated into AIMS in
accordance with General Accounting Office (GAO) standards and
those described in SSA’s Training Course. All cardholders
should be required to comply with the established documentation
procedures.

SSA Comment

We agree and will incorporate into the appropriate AIMS
instruction the required documentation procedures before
September 30, 2000.

Cardholders have always been required to comply with these
procedures. However, as an improvement to our oversight efforts
and to expand the remote purchasing reviews we have conducted


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)     A-2
for some time, we implemented on site Acquisition Management
Reviews of Headquarters micro-purchasers in April 2000. In
addition, as part of the regional office's Acquisition
Improvement Plans, some of the regional contracting officers
have begun on-site reviews in their respective regions.

OIG Recommendation 3

Reinforce knowledge of policies and procedures on the management
approval of all purchase requisitions to confirm that purchases
are appropriate and are for official Government purposes.

SSA Comment

We agree and will periodically issue appropriate reminders.
The first of these reminders will be issued by August 31, 2000.

OIG Recommendation 4

Require adherence to GAO and SSA micro-purchasing policies and
procedures that require separation of duties. For example,
reinstitute the requirement for an authorizing official’s
approval when certifying IMPAC purchases. Incorporate such
micro-purchasing procedures in Purchase Card Reporting System
(PCRS) guidance as well as the AIMS.

SSA Comment

We agree, in part, with this recommendation. We agree with the
need for separation of duties and for approving officials (AO)
reviewing the activity of their micro-purchasers. However, we
do not agree that this requirement must be in the PCRS.

The AO's paper copy of the monthly statement will continue to
serve as the final step of the post-review certification process
to ensure the validity of the transactions made by his/her
cardholders. In addition, to provide for a system of checks and
balances, we require a separation of duties when items are
received at the office. See Module 9, Inspection and Acceptance
of SSA’s Micro-Purchasing in SSA Field Activities training
course.

We plan to incorporate the PCRS process into Citibank's
Electronic Access System (EAS). This conversion would provide
EAS to all cardholders to certify their transactions and to the
AOs for the review process. The EAS would then eliminate the
"paper" statement of account and business account summary that


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-3
the bank is now mailing to the cardholders and AOs.

OIG Recommendation 5

Require proper recording and accounting of all expendable
purchased items considered sensitive.

SSA Comment

We agree. Within the next two months SSA will research this
issue and send an acquisition alert to all cardholders, which
will also include the information in the revised AIMS.

OIG Recommendation 6

Require that only authorized cardholders be able to process
IMPAC transactions.

SSA Comment

We agree. This policy is clearly specified in the AIMS as well
as training documents. The acquisition alert dated September
1998 reiterates that purchase cards are for the exclusive use of
the cardholder and certifications should be conducted by the
responsible cardholder only. We will periodically issue
acquisition alerts as reminders.

OIG Recommendation 7

Investigate all potential violations of purchase limitations to
ensure appropriate IMPAC use.

SSA Comment

We agree. We developed the Purchase Card Information System
and continue to use it to identify violations of limits (i.e.,
order splitting and restricted/prohibited purchases). Also, on
August 18, 1999, we revised the Purchase Card Information
System, permitting analysts performing acquisition management
reviews to more effectively tailor and manipulate data for more
efficient and focused remote reviews.

OIG Recommendation 8

Require cardholders to provide adequate descriptions of
purchased items to ensure the effectiveness of the PCRS
monitoring system.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)     A-4
SSA Comment

We agree. The current micro-purchase computer-based training

that was released to FOs in 1994 and to Headquarters

in March 1996 requires this kind of documentation. The PCRS

online instructions have included this requirement since we

released the program in October 1995. Additionally, last year

we posted an instruction manual that stresses the same

requirement.


We will issue periodic acquisition alerts as a reminder

stressing the need for entering adequate purchase descriptions

in the PCRS when cardholders purchase multiple items. We will

emphasize prioritizing them as to quantity, price or sensitive

items.


OIG Recommendation 9


Establish an edit process in the PCRS to identify incorrect
sub-object class codes (SOC).

SSA Comment

We disagree. It is not possible to build into PCRS            edits for
INCORRECT codes. However, we have included in PCRS            Version 4.2
an edit to ensure that the common accounting number           and
sub-object class code used for each transaction are           VALID codes.

Before the end of the fiscal year we will include in our micro-
purchase AMRs a verification process to ensure the SOC code is
correct. We will reemphasize the FACTS guidance in periodic
acquisition alerts.

OIG Recommendation 10

Require appropriate budget approval and accounting
classification of all IMPAC purchases as a means of maintaining
proper fiscal control.

SSA Comment

We agree and will explore possible ways to ensure that budget
approval is documented in the file. We believe the perceived
lack of budget approval is most likely a documentation
deficiency. In the interim, the Agency will emphasize the need
for such documentation when reviewing micro-purchase files.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)             A-5
Other Comments

BACKGROUND (Page 1)

We believe the first sentence should read: “…. program
authorized by Executive Order 12352 in 1982 and implemented in
SSA in 1988, was designed to streamline Federal acquisition and
payment procedures….”

The second sentence and footnote 2 should be reversed, since the
OIG audit involved the time period for IMPAC purchases under the
General Services Administration (GSA) contract with Rocky
Mountain Bankcard System, Inc. and not Citibank Corporation.

We would also like to point out that GSA awarded several
contracts to other financial institutions in 1998 for its new
GSA SmartPay Program. Agencies could choose, from these
contractors, the one who can best meet the agency's needs. SSA
chose Citibank Corporation, effective November 30, 1998, to
handle our purchase card program.

RESULTS OF REVIEW

Required Purchase Logs Were Incomplete or Nonexistent (Page 3)

The first paragraph states that the actual delivery date should
be included in the purchase log according to the micro-
purchasing course referred to in footnote 5. The course
requires that the purchaser keep a record of the fact that
delivery occurred. Therefore, we suggest that number 6 in the
second sentence read “delivery occurred” rather than “actual
delivery date.” Also, in footnote 5, the sentence should say,
“The cardholder checks off the “delivery occurred” column …”
(not the “delivery date” column).


Paragraph 3, second sentence needs to be clarified as follows:
“The other Headquarters cardholder failed to post 63 of 90 (70
percent) transactions because of billing problems with the
vendor.” Purchases should be recorded in the purchase log as
they are made. Each purchase is a transaction. Billing
problems are unrelated to the log. The number of billings that
result, including incorrect billings, etc., are not reflected in
the log. Therefore, billing problems should not justify a
cardholders failure to post any transactions.



SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-6
IMPAC Transactions Had Partial or No Required Documentary
Evidence (Page 4)

The report states that “…(3) a copy of the payment document
showing a purchase has been made and has a zero balance due; and
(4) proof of delivery, such as any delivery tickets and packing
slip receipts issued by the vendor and given to an individual
other than the requester.”

To correctly summarize or quote the documentation requirement,
the report should be revised to say: “… (3) a copy of the
payment document, if any (this requirement only applies if the
purchase was made in person or if payment was made by third
party draft rather than by purchase card); and (4) proof of
delivery, if any. (This only applies if the vendor provides a
packing slip or other proof of delivery.)”

The words “if any” make “requirements” (3) and (4) optional.
Since very few purchases are made in person, it would be rare to
find any type of payment document in file. Also, the purchaser
cannot control whether the vendor provides proof-of-delivery
documents. Many vendors may not provide packing slips or, even
if provided, the person receiving the package may discard the
slip so that it is never provided to the purchaser.

In addition, Footnote 7 could be interpreted to mean that the
request documentation must include all the elements listed. We
suggest that Footnote 7 be changed to read as follows:

“Request documentation may include such things as what the
cardholder was asked to purchase, for whom, required delivery
date, suggested source, justification, and any approvals
obtained. If the purchaser is the requestor, it need only
include what it is that you are going to purchase.”


Management Approval Was Not Always Obtained for IMPAC Purchases
(Page 5)

At a minimum, we suggest the title of this section be rewritten
as: “Written Management Approval Was Not Always Obtained for
IMPAC Purchases.”

Our instructions to micro-purchasers do not state that written
management approval is required prior to making a purchase. We
only require that management approval be obtained. (Our training
says that the purchaser must follow the component’s internal


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-7
approval rules.) If management approves the items to be
purchased, whether verbally or in writing, management has had
the opportunity to confirm that the proposed purchases are
appropriate for official Government purposes.

Automated IMPAC Purchasing Procedures Did Not Provide for
Separation of Duties (Page 6)

Regarding the first paragraph, on February 17, 1995, while
purchase card transactions were still processed manually, SSA
eliminated the requirement for the paper statement of account to
be signed by both the cardholder and the cardholder’s approving
official (AO). Specifically, we eliminated the requirement for
the AO to sign the paper statement of account prior to it being
sent to the Office of Finance (OF). However, we retained the
requirement for the AO to review all purchases by cardholders.
This review was accomplished by reviewing the monthly Business
Account Summary. As stated in our February 17, 1995 message
(Acquisition Alert #95-2), “The BAS [Business Account Summary]
allows the AO [Approving Official] to review purchases by CHs
[cardholders] and provides monthly expenditure verification
reporting, and is an important part of the SSA system of checks
and balances. This report should be used by the AO as part of
the SSA system of controls to prevent fraud, waste or abuse.”

Prior to this change, FOs rarely used the purchase card. A
survey revealed that the requirement to send the paper
statement of account (and supporting documentation) to the AO
for sign-off prior to forwarding to OF was a major barrier to
purchase card use in SSA. The paper process for using the
purchase card was so cumbersome and time consuming that using a
third party draft or paper requisition was preferable for
purchases.

To date, AOs continue to receive monthly statement of accounts
directly from the purchase card bank and are required to review
these monthly statements. Thus, we cannot agree that the
current policy “increases the potential for cardholders to make
unauthorized purchases without detection.”

Unauthorized Individuals were Allowed IMPAC Access (Page 7)

Prior to May 1999, SSA’s policy that third party draft (TPD)
cashiers could not have purchase cards prevented them from
requesting purchase cards for their administrative assistants
and other lower-graded staff whom they called upon to make
purchases for the office. (Nearly all FO administrative


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)     A-8
assistants have been appointed TPD cashiers along with service
representatives and others.)

SSA consulted with the Department of Treasury and on May 11,
1999 issued Acquisition Alert 99-08 to the field. This Alert
changed Agency policy allowing SSA TPD cashiers to also have
purchase cards. Since then a variety of communications have
been sent to the field encouraging managers to get purchase
cards for the individuals who are actually doing the purchasing
for the office.

Split Purchases Were Used to Exceed IMPAC Spending Threshold
(Page 7)

At the time of the audit, we did not have a quick means to
identify split purchases. Since then, however, we developed an
automated Purchase Card Information System (PIS). The PIS
produces a report of apparent split purchases. We use it when
we perform acquisition management reviews.

The PCRS Contained Insufficient or Inaccurate Information (Page
8)

Regarding the statement “Over One-Third of Reviewed Transactions
Did Not Have Accurate Purchase Descriptions.” One of the twelve
cardholders who were audited accounted for 60 percent of the
headquarters transactions (1,035 transactions reviewed).
It would be helpful if the report included statistics with and
without the transactions made by the one purchaser.

IMPAC Purchases Were Made Without Evidence of Budget Approval
(Page 9)

As in our comments above concerning page 8 of the report,
statistics excluding the one cardholder who accounted for more
than 60 percent of the headquarters transactions would prove
beneficial.

The second paragraph states that, “Cardholders did not obtain
[budgetary] approvals because common accounting number and
sub-object codes financial data had not been assigned to
purchased items.”   The report concludes that cardholders did
not obtain budgetary approvals because auditors saw no evidence
of common accounting number and sub-object class codes assigned
to the purchase somewhere in the file. Current training does
not require that either of these numbers be assigned at this
stage. The training says, “Budget approval involves checking


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-9
the CAN and SOC to ensure that the money is available for the
specific item or items being requested.” Therefore, the manager
must check his/her budget and look under the correct common
accounting number and object class in the budget.

In general, there are only a few object classes (usually 4) that
can apply to a purchase. For example, 2,600 represents
supplies. The other classes are printing, advisory and
assistance services, and equipment.

Since offices generally have only two common accounting numbers
(CAN) that apply to purchases (one for information technology
systems (ITS) and one for non-ITS), we see no need to require
the CAN to be written on each purchase request. It only needs
to be checked for funds sufficiency prior to purchase.

We believe that component budget staffs are following SSA
procedures and are providing budgetary approval prior to
purchase. Headquarters component budget offices and component
managers are not likely to tolerate significant micro-purchase
activity that bypasses budgetary controls.


It would be helpful if the report included explanations given by
the headquarters micro-purchasers as to when and how the
budgetary approval was accomplished. By not providing the
headquarters purchasers’ explanations of this apparent
deficiency, the report does not give a complete picture of the
operation of the headquarters micro-purchase program.

Regarding the third sentence: “FOs confirmed their expenditures
by checking against their budget allocations provided by their
regional offices

If the “confirming of expenditures” was done prior to purchase,
then this is a sufficient budget approval process. Based on the
above, we believe each statement that budgetary approval was not
obtained should be revised to say that there was no
documentation reflecting budgetary approval in the file.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-10
                                                                       Appendix B


Major Report Contributors

Office of the Inspector General

   Shirley E. Todd, Director, General Management Audit Division

   Carolyn Neuwirth, Deputy Director, General Management

   Carl Markowitz, Audit Manager,

   Frank H. Williams, Jr., Auditor-in-Charge

   Steve Weal, Senior Auditor

   Mark C. Meehan, Senior Auditor

   Kimberly Beauchamp, Writer-Editor, Policy, Planning & Technical Services Division

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-97-91018.




SSA’s Internal Controls Over the IMPAC Payments (A-13-97-91018)
                                                                  Appendix C


SSA Organizational Chart





SSA’s Internal Controls Over the IMPAC Payments (A-13-97-91018)
